HHS/OIG, Audit -"Review of Calendar Year 1999 and 2000 Cost Reports Submitted by Scott&White Health Plan to the Centers for Medicare and Medicaid Services for Reimbursement,"(A-06-02-00034)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Calendar Year
1999 and 2000 Cost Reports Submitted by Scott & White Health Plan to
the Centers for Medicare and Medicaid Services for Reimbursement," (A-06-02-00034)
May 7, 2003
Complete
Text of Report is available in PDF format (2.12 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Scott and White Health Plan (Plan) overstated
costs claimed on both its 1999 and 2000 Medicare cost reports by about $8.2
million.  In addition, the Plan was not in compliance with the financial
disclosure requirements for related party administrative costs totaling about
$14 million for both 1999 and 2000.  We recommended that the Plan file
amended Medicare cost reports for 1999 and 2000 decreasing the amount claimed
by $8.2 million.  We also recommended that the Plan; (1) adhere to the
reporting requirements for disclosing significant related party transactions,
(2) make sure that the duplicate payment controls are functioning properly,
and (3) file amended Medicare cost reports for errors impacting prior years.  The
Plan generally concurred with our recommendations.